                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                     Office of Inspector General
                                                     Washington, D.C. 20230




June 5, 2013


MEMORANDUM FOR:                Dr. Kathryn D. Sullivan
                               Acting Under Secretary of Commerce for Oceans



FROM:                         A:~~:~~~c~
                              Assistant Inspector General for Systems Acquisition
                               and IT Security

SUBJECT:                      Audit of NOAA's Geostationary Operational
                               Environmental Satellite-R Series Program

As part of our FY 2013 work plan, and in conjunction with our Top Management
Challenges Facing the Department of Commerce report, we plan to audit NOAA's
Geostationary Operational Environmental Satellite-R Series (GOES-R) program.

The objective of our audit is to assess the adequacy of GOES-R development activities,
as the program completes the ground system and fabrication of flight instruments and
the spacecraft, and transitions to system integration and test, per NOAA and National
Aeronautics and Space Administration (NASA) standards. We will also monitor
NOAA's progress in developing and vetting with stakeholders a comprehensive set of
trade-off approaches to mitigate launch delays and its oversight of GOES-R systems
engineering.

We will contact your audit liaison to schedule an entrance conference. In the meantime,
if you have any questions about this review, please contact me at (202) 482-1855 or
Fred Meny, Director, Satellites and Weather Systems, at (202) 482-1931. We appreciate
the cooperation of your staff during this audit.

cc: 	   David Kennedy, Deputy Under Secretary for Operations, NOAA
        Robert M. Lightfoot Jr., Associate Administrator, NASA
        Mary E. Kicza, Assistant Administrator for Satellite and Information Services,
         NOAA
        Barbara Fredericks, Assistant General Counsel for Administration
        Mack Cato, Director, Office of Audit and Information Management, NOAA
